U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

May 10, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Purcell v. United States, No. 20-7482
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 12,
2021. The government’s response is now due, after one extension, on May 17, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including June 18, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-7482
PURCELL, LAVELLOUS
USA

YUANCHUNG LEE
FEDERAL DEFENDERS OF NEW YORK, INC.
52 DUANE STREET
10TH FLOOR
NEW YORK, NY 10007
212-417-8742
YUANCHUNG_LEE@FD.ORG

